                          UNITED STATES OF AMERICA
                FEDERAL LABOR RELATIONS AUTHORITY
                 OFFICE OF THE INSPECTOR GENERAL
                            WASHINGTON, D.C. 20424-0001


SUBJECT: Federal Labor Relations Authority Inspector General Internal
Review of Information Resource Technology Contractors.

METHODOLOGY:

This Federal Labor Relations Authority Inspector General Internal Review of
Information Resource Technology Contractors was conducted in accordance with
the Inspector General Reform Act of 2008, the Inspector General Act of 1978, as
amended, in compliance with the Inspector General Counsel of Integrity and
Efficiency and the Federal Labor Relations Authority Inspector General’s updated
(2009) related policy.

This investigation related to the initial Bureau of Public Dept contract for the
Federal Labor Relations Authority with Global Tech Inc, in 2007 and the
September 2008 contract with the same company through the National Business
Center. This Internal Review focused on reviewing the contracted Federal Labor
Relations Authority Information Technology and Security program as well as the
capability of current Information Resource Management employees in bringing
the diminished system back to current requirements and future aspects.

REFERENCES:

-   The Inspector General Act of 1978, as amended

-   The Inspector General Reform Act of 2008

-   Federal Information Security Management Act of 2002

-   Office of Management and Budget Guidance for Freedom of Information Act
    Security Review

-   National Institute for Standards and Technology

-   Inspector General Counsel Freedom Information Security Act Framework

-   National Institute of Standards and Technology SP 800-30 Risk
    Management Guide for Information Systems
-   National Institute of Standards and Technology SP 800-34 Contingency
    Planning Technology Guide for Information Technology Systems;

FACTS:

-   In December 2007, the former Executive Director directed the Director of
    Administrative Services Division to submit a Network Contract through the
    Health and Human Resource Contracting System. Two contractors from
    Global Tech Inc. a Supervisor and Network Administrator were hired to
    assess Information Technology Resources which were reusable and to
    determine what needed to be done to update the Federal Labor Relations
    Authority’s Information technology. A major problem occurred with the first
    Global Tech Inc. contracted network administrator and Global Tech Inc.
    replaced the first individual with another network administrator who is still
    performing work at the Federal Labor Relations Authority properly.

-   The former Acting Chief Information Officer interacted with the Federal
    Labor Relations Authority Inspector General and stated that the Global Tech
    Inc. contractors were good and he had no problem with them. He also
    hired 6 additional current contractors from Global Tech Inc. through the
    Department of Interior National Business Center before he left the Federal
    Labor Relations Authority in September 2008 because he was convinced
    that the current Information Resource Administration employees had no
    expertise in most of the necessary issues and all of them needed training to
    update their knowledge. The Federal Labor Relations Authority Inspector
    General affirmed this statement. The former Acting Chief Executive Officer
    definitely felt that the Federal Labor Relations Authority needed contractors
    until experienced employees were hired and/or the current employees were
    trained properly. However, the new Global Tech Inc. contract was quite
    expensive.

-   The Global Tech Inc. contractors were individually responsible for the
    following roles for the Federal Labor Relations Authority:


    •Project Manager
    •Program Manager



                                       2
    •Senior Architect
    •Technical Analyst
    •Network Engineer/Help Desk Support
    •Technical Writer


-   The Global Tech Inc. Network Administrator, who started working for the
    Federal Labor Relations Authority in March 2008 focused on reviewing the
    Information Security concerns with the Network Administrator. They looked
    at backup systems, images for lab tops network administrations and the
    reduction of spams. The Global Tech Inc. Network Administrator stated he
    continuously consulted with the FLRA and issued a monthly report to him.
    He was not aware if these reports were provided to the Acting Chief
    Information Officer/Acting Executive Director or Chairman of the Federal
    Labor Relations Authority.

-   The current Global Tech Inc. Project Manager affirmed that the group
    started the Federal Labor Relations Authority contract on September 22,
    2008. He stated his group previously had information security jobs prior to
    this current assignment and all of his contractors had previous experience in
    conducting similar jobs. He also stated that implementation of actions can
    not occur until it is approved by management and the Federal Labor
    Relations Authority can not make these decisions, (which is proper because
    of his knowledge). The Global Tech Inc. Project Manager is currently
    upgrading and developing new Information Security policy in compliance
    with the Office of Management and Budget. The Global Tech Inc. Project
    Manager stated that the Federal Labor Relations Authority was not currently
    in compliance with Office of Management and Budget guidelines and
    Federal Information Technology laws.

-   The Global Tech Inc. Project Manager is currently working to get the Federal
    Labor Relations Authority software applications, electronic files, upgrade of
    infrastructure, and network security in compliance with current requirements.
    The Project manager also affirmed the Federal Labor Relations Authority
    Inspector General’s previous findings including the fact that the current
    Federal Labor Relations Authority Information Technology System goes
    back to 2002, the amount of spams on the internet is extensive (although


                                       3
    the contractors are working on this and have reduced it somewhat), there is
    no proper information technology security and no Federal Labor Relations
    Authority Technology Security Officer.

-   The Global Tech, Inc. contractors are currently looking at the philosophical
    and financial aspects of hiring out Federal Labor Relations Authority
    Information Technology to another Federal Agency, continuing to outsource
    Federal Labor Relations Authority Information Technology or hiring more
    Federal Labor Relations Authority Information Technology employees. It will
    probably take them one to two more months to finish this particular study
    and provide a recommendation to Federal Labor Relations Authority
    Management.

-   The major problem the current Global Tech Inc. contractors initially had with
    working for the Federal Labor Relations Authority was the lack of prior
    information technology documentation and instructions which was not
    provided to them. When talking with the Federal Labor Relations Authority
    Inspector General, the Project Manager was not aware that information
    technology instructions did not exist. On December 10, 2008, the Director of
    the Administrative Services Division provided the Acting Information
    Technology Contracting Officer Technical Representative with three
    previous documents for the Global Tech Inc. contractors. On the same day
    the Global Tech Inc. Project Manager discussed the lack of previous
    information regarding information technology with the Federal Labor
    Relations Authority Inspector General who then provided him with
    information related to the Inspector General internet where he could go on
    and get information technology documentation from the Inspector General’s
    Freedom of Information Security Act evaluations, semi-annual reports,
    audits and internal reviews relating to his subject matter.

-   Another issue the current Global Tech Inc. contractors feel is a problem is
    the fact that there is no Chief Information Officer to interact with the
    contractors. The current Acting Executive Director/Acting Chief Information
    Officer affirmed that the paperwork is being submitted for the position for a
    Federal Labor Relations Authority Chief Information Officer. During the
    preliminary time of this Global Tech Inc. contract, several reports have been


                                       4
    issued by the Global Tech Inc. Project Manager to the Acting Executive
    Director/Acting Chief Information Officer regarding issues already looked at
    by the contractors. Management is currently involved in reviewing and
    making decisions on the submitted issues.

-   During the first year of this Global Tech Inc. Contract, the contractors will
    focus on building foundation and will do research on case management for
    products, policies and the development of necessary requirements for the
    Electronic Case Management and Freedom of Information Act System.
    They also will look at new tools and recommend those that should be
    implemented during the 2nd year of the contract. They also plan to
    implement components starting in the 2nd year which will be carried over to
    the 3rd year. During the 3rd year, the Global Tech Inc. contractors plan to
    monitor all requirements and implementations.

-   For the Infrastructure Support and Business Development Contract, during
    the 1st year, the Global Tech Inc contractors will review current Information
    Technology and Network Infrastructure, make recommendations to
    Management and create related policy.

-   Currently, the Global Tech Inc. contractors are focusing on the inventory of
    Information Resource Management equipment, working on creating
    Information Technology and Security Policy, and trying to figure out how
    Federal Labor Relations Authority employees can work from home. They
    are also addressing issues related to Network Administration, Network
    Security and updating 2003 servers to the next generation of technology.

-   Although the current contract is expensive and costs $1.2 million, in order to
    reestablish a proper Government Information Technology system for the
    Federal Labor Relations Authority, the Agency needs to keep these
    contractors until they can hire at least one or two trained, experienced and
    professional information technology employees in addition to the Chief
    Information Officer. The Federal Labor Relations Authority has 3 employees
    with one acting as the Contracting Officer Technical Representative. None
    of these Federal Labor Relations Authority employees have sufficient
    training to conduct the same actions as the current Global Tech Inc.


                                       5
    contractors. The two other Federal Labor Relations Authority employees
    stated they were not provided information on the issues being handled and
    completed by the Global Tech Inc. contractors from the Contracting Officer
    Technical Representative or Project Manager Contractor.

-   The current Federal Labor Relations Authority Information Resource
    Management Contracting Officer Technical Representatives stated he was
    not comfortable with the other two Information Resource Management
    employees and could not depend on them. He stated that if these two other
    Information Resource Management employees liked the directed job they
    would do it but if they didn't like it, it took forever for them to complete the
    job. The Information Resource Management Contracting Officer Technical
    Representatives also stated that he had no specific meetings with the Global
    Tech Inc. contractors to obtain information to keep the employees informed.
    However the Global Tech Inc. Project manager stated that he did provide
    the Information Resource Management Contracting Officer Technical
    Representative with reports and information. The Information Resource
    Management Contracting Officer Technical Representative also affirmed
    that he is a Database person who does not know a lot about information
    security and has had no training regarding other information technology
    systems.

-   The current two Federal Labor Relations Authority Information Technology
    employees were significantly ignored by the former Federal Labor Relations
    Authority Executive Director and Chief information Officer, were rarely
    assigned any work and were not given proper training over the last 8 years.
    When initially hired before the last administration, both of these employees
    were considered good and capable. Both stated that the current Contracting
    Officer Technical Representative, Acting Chief Information Officer and
    Contractors rarely interact with them regarding current issues. Both have
    requested to the Contracting Officer Technical Representative that they be
    assigned information technology jobs and bring them back to their former
    information technology capabilities.

-   The 6 Global Tech Inc. contractors were interviewed by the Federal Labor
    Relations Authority Inspector General. All of these contractors were


                                        6
        extremely experienced in information technology and were properly focusing
        on their assigned program. They began their work in September 2008 and
        were involved in jobs such as upgrading and identifying necessary
        Information Resource Management skills, upgrading the infrastructure,
        upgrading and developing policy, procedures and instructions related to
        Information Technology/Security in compliance with the Office of
        Management and Budget guidelines. They also are focusing on developing
        electronic files, the Federal Labor Relations Authority network, and
        electronic systems.

    -   The Global Tech, Inc. contractors interviewed by the Federal Labor
        Relations Authority Inspector General felt three years would be absolutely
        necessary to review the current information technology status, prepare
        corrections and necessary requirements, and implement their
        recommendations after the approval of the Federal Labor Relations
        Management.

-       The Global Tech Inc. contractors are currently focusing on the following
        deliverables. So far only the first has been completed and submitted to
        management for approval.

          1. Functional Requirements
          2. Freedom of Information Act Requirements
          3. Cost Benefit Analysis
          4. Office of Management and Budget A-300 Circular 11 Requirements
          5. Physical Data Model
          6. Design Document
          7. Security Document
          8. Migration Plan
          9. Test Plan
          10. Tool Configuration
          11. Develop EA vision’
          12. 12-Update Office of Management and Budget A-300 Requirements
          13. Project and Program Management.




                                           7
-       The Global Tech Inc. contractors plan to create the following Federal
        Labor Relations Authority Infrastructure. The first three have been
        completed and submitted to management for approval.

           1. Information Security Strategic Plan
           2. Information Technology Business
           3. Systems Development Life Cycle Methodology
           4. Hosting Options
           5. Update Information Security Business Plan
           6. Update Information Security Strategic Plan
           7. Review documentation and report status
           8. Report Inventory
           9. Service Level Agreement Process Document
           10. Federal Labor Relations Authority 6920 update
           11. Information Technology Acquisition Technology
           12. Federal Labor Relations Authority Instruction 4410.1B
           13. Federal Labor Relations Authority Instruction 4200.1A
           14. Systems Development Life Cycle Management Policy
           15. Federal Labor Relations Authority Information Technology policies
           16. Graphics and Packaging for FLRA documentation.

    -   The current Federal Labor Relations Authority Acting Executive
        Director/Acting Chief Information Officer stated that in order to improve
        the Federal Labor Relations Authority’s Information Technology Program,
        a good and experienced supervisor (Chief Information Officer) is definitely
        needed to move the Agency forward. Improving the Federal Labor
        Relations Authority’s Information Security will involve a significant amount
        of money and security updates are definitely needed to be put into place.
        The Acting Executive Director also stated that the Federal Labor
        Relations Authority should not transfer the Information Resource
        Management to another Federal Agency and is aware that the Chief
        Information Officer Position is a very important role and that this new
        employee will make decisions on training and using current employees
        more effectively. The Federal Labor Relations Authority’s computers,




                                         8
        Information technology systems and telephones all need immediate
       changes. Although all software will be expensive, so is using contractors
       instead of Federal Labor Relations Authority employees.

CONCLUSION:

Although the current Global Tech Inc. contract for 3 years is very expensive (2nd
and 3rd year can be eliminated if Federal Labor Relations Authority Management
wants to end the contract. Right now, without a Contracting Officer and properly
trained Information Resource Management employees, contractors are needed
to properly address the Federal Labor Relations Authority Information
Technology, Information Security and Federal Information Technology
requirements.

The Federal Labor Relations Authority Inspector General's interviews with the
Global Tech Inc. contractors indicated that they were focusing on conducting a
good job but were having a significant problem relating to not being able to obtain
previous Information Technology documentation. Apparently, it was stated but
not confirmed by the Inspector General that the previous Federal Labor
Relation’s Authority’s Executive Director removed these files from the Agency
before she left the Agency in February 2008.

The Federal Labor Relations Authority Inspector General had several Freedom
Information Security Act Reports, an internal Administrative Review and a Survey
on the Inspector General Internet which related to Federal Labor Relations
Authority Information Technology and provided this public access to the
contractors to help them be aware of some of the previous Information
technology problems and findings/recommendations.

The current three Federal Labor Relations Authority employees do not have the
proper training or assignments to properly maintain the Federal Labor Relations
Authority's Information Technology and Security System. They definitely need a
significant amount of new training before they can focus on what needs to be
done to correct the Federal Labor Relations Authority’s Information Technology.




                                        9
Because of the current situation, the Federal Labor Relations Authority should
hire a professional and experienced Chief Information Officer which will help the
Agency, the current contractors and the Information Technology employees who
should be focusing on improving the system.

Improving the Federal Labor Relations Authority’s Information Technology
System will take several years, require additional allocated Information
Technology Budget and support all Federal Labor Relations Authority Employees
in properly conducting their jobs at work and perhaps at home on computers. To
move from 2003 computers to new computers (2009) could bring on another
problem. The current contractors need to send a venue and need to ask Federal
Labor Relations Authority employees questions regarding current practices.
Management and employees need to be transparent. It would also be helpful for
the Federal Labor Relations Authority Information Resource Management to
develop a template system.

FINDINGS AND RECOMMENDATIONS:

Finding 1:

The Federal Labor Relations Authority Information Resource Management
employees have not been trained during the past administration to properly
conduct their jobs.

Recommendation 1:

The current Federal Labor Relations Authority Information Resource
Management employees need specific training relating to the programs currently
being addressed by the Contractors and Management.

Finding 2:

The current Global Tech Inc. contractors are extremely experienced and are
devoted to conducting an extensive job for the Federal Labor Relations Authority.




                                       10
Their current concern is that the Federal Labor Relations Authority does not have
an experienced Chief Information Officer with whom they can properly interact
with.

Recommendation 2:

The Federal Labor Relations Authority should focus on hiring an experienced and
professional Chief Information Officer as soon as possible. The experienced new
Chief Information Officer should determine whether the Federal Labor Relations
Authority should “build, rent or buy” Information Technology requirements.

Finding 3:

The Global Tech Inc. contract is for 2 years with a 3rd year option which may be
necessary to properly update the Federal Labor Relations Authority’s Information
Technology until an experienced Chief Information Officer is hired and Federal
Labor Relations Authority Information Technology employees are properly
trained so that they can professionally conduct their jobs.

Recommendation 3:

Currently, the Global Tech Inc. contractors are needed by the Federal Labor
Relations Authority. During the next year, the Federal Labor Relations Authority
should hire one or two experienced and well trained information technology
employees in addition to the current Federal Labor Relations Authority
Information Technology employees and in addition to the Chief Information
Officer. This will eliminate the necessity to hire contractors to research and
consult in the Information Technology program in the future.

Finding 4:

Information technology concerns and requirements of Federal Labor Relations
Authority Employees are not being addressed properly by the current situation.




                                       11
Recommendation 4:

Federal Labor Relations Authority Management should re-create a Federal Labor
Relations Authority Technology Committee including Headquarters and Regional
Office employee’s to discuss Federal Labor Relations Authority employee’s
Information Technology concerns and issues and provide management with their
information relating to Information Technology.




Date Issued: January 26, 2009




                                     12
